U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



 FOOD STAMP EMPLOYMENT AND
TRAINING PROGRAM — CALIFORNIA




              Report No.
              27099-23-SF
              February 2004
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                          OFFICE OF INSPECTOR GENERAL
                                                Western Region - Audit
                                            75 Hawthorne Street, Suite 200
                                            San Francisco, CA 94105-3920
                                        TEL: 415-744-2851 FAX: 415-744-2871



DATE:             February 19, 2004

REPLY TO
ATTN OF:          27099-23-SF

SUBJECT:          Food Stamp Employment and Training Program – California

TO:               Allen Ng
                  Regional Administrator
                  Western Region
                  Food and Nutrition Service

ATTN:             Kathleen Burks
                  Director of Financial Management

This report presents the results of our audit of the Food Stamp Employment and
Training (E&T) Program costs in California. We reviewed claims by the State office and
two county offices (Los Angeles and San Francisco). The claims at these three sites
totaled $26,198,713. We found that the E&T claims were generally accurate and
allowable, except for an unallowable cost at San Francisco County of $8,400.

BACKGROUND

In 1985, the Food Security Act1 created E&T to help Food Stamp Program recipients
gain skills, training, or experience that will increase their ability to obtain regular
employment. In 1996, as part of the welfare reform, the Personal Responsibility and
Work Opportunity Reconciliation Act 2 provided additional guidance to E&T by requiring
that able-bodied adults without dependents be limited to 3 months of food stamp
benefits in a 36-month period unless they meet certain work requirements.

Funding for E&T is provided to States from Federal grant funds (100 percent funds),
Federal matching funds (50 percent funds), and participant reimbursement funds to
support travel to work sites and other necessary expenses.3 Quarterly, States are
required to submit Financial Status Reports to claim reimbursement for program costs.
In California, E&T is administered by California Department of Social Services (CDSS)
and is implemented locally by the 51 participating COs.4 COs are reimbursed through

1
  Public Law 99-198 dated December 23, 1985.
2
  Public Law 104-193 dated August 22, 1996.
3
  The 100-percent grant funds are allocated among the States. If a State exceeds all of its 100-percent grant, FNS
will match dollar for dollar the amount that the State spends on its own funds.
4
  The seven remaining counties in California elected not to participate in the program.

USDA/OIG-A/27099-23-SF                                                                                      Page 1
the State by submitting a County Expense Claim.5 In FY6 2002, CDSS used less than 1
percent of available E&T funds for program administration. Participating COs used the
remaining 99 percent to implement E&T through contracts with vendors that provide
work experience, education, and training activities for E&T participants.

OBJECTIVE

The objective of this audit was to determine the accuracy and allowability of California’s
E&T claims.

SCOPE

We selected California because its FY 2002 claims of $48,612,160 amounted to over 80
percent of all E&T claims in Food Nutrition Service’s Western Region. Our review
included E&T expenditures claimed by CDSS and 2 out of 51 COs (Los Angeles and
San Francisco), which were judgmentally selected based on the high dollars expended
in FY 2002. Combined, these three sites claimed $26,198,713,7 or nearly 53.9 percent
of total E&T funds reimbursed in California. Of this amount, we judgmentally sampled
nearly $5 million, selecting large or unusual costs claimed by vendors that provided
services to E&T participants. We also reviewed cost allocation methodologies used at
the three locations.

We performed fieldwork from July 2003 to November 2003 at Food Nutrition Service
Western Regional Office (FNSWRO) in San Francisco; CDSS in Sacramento; the San
Francisco County Department of Human Services; and the Los Angeles County
Department of Public Social Services.

This audit was performed in accordance with generally accepted government auditing
standards.

METHODOLOGY

To accomplish our objectives, we performed the following procedures:

    •   We reviewed applicable laws, regulations, policies, and procedures governing the
        E&T program, including Office of Management and Budget (OMB) Circulars to
        familiarize ourselves with the requirements of the program.




5
  The County Expense Claim (DFA 325) is a State form used by the counties to summarize costs from all Federal,
State and county programs.
6
  The Federal fiscal year (FY) is from October through September.
7
  Los Angeles County - $19,261,598; San Francisco County - $6,616,428; and CDSS - $320,687.



USDA/OIG-A/27099-23-SF                                                                                  Page 2
      •   We reviewed Government Accounting Office (GAO) reports and contacted other
          Office of Inspector General (OIG) Regional Offices to better understand past E&T
          audit issues.

      •   At the FNSWRO, we obtained Financial Status Reports to determine E&T costs
          that were claimed by CDSS during our scope period. We also interviewed
          FNSWRO staff regarding the results of a recent E&T Management Evaluation of
          San Francisco County and obtained information about allowable program costs.

      •   At CDSS, we reviewed a sample of E&T costs to determine if there were any
          discrepancies. We also reviewed and analyzed CDSS’ system of processing and
          incorporating CO E&T claims into the quarterly Financial Status Report to
          determine if controls were adequate.

      •   At the COs, we sampled E&T direct costs to determine if the costs were accurate
          and allowable. We also interviewed CO accounting personnel and reviewed time
          study procedures to determine if CO methods of allocating costs to E&T were
          reasonable.

FINDING

San Francisco County claimed an unallowable contract cost as an E&T expenditure.
According to officials, the staff inadvertently claimed the cost because it was included
with a group of other contracts issued to provide employment services. As a result,
FNS overreimbursed CDSS by $8,400 (See exhibit A).

OMB Circular A-878 requires that “to be allowable under Federal awards, costs
must…be necessary and reasonable for proper and efficient performance and
administration of Federal awards.”

During our review of the county’s quarterly expenses, we questioned a $20,0009
contract payment to the Central American Resource Center (CARC), a non-profit
organization that provides medical services to immigrants in the San Francisco area.
We were unable to determine how this payment was related to the E&T program. When
we questioned county officials, they agreed that it was not related. The county had
mistakenly included the $16,800 unallowable cost in its Expense Claim (Federal
matching was $8,400) with a group of other contract costs that were coded for
employment services. Supervisory spot checks of the claims did not detect the error.


8
    Cost Principles for State, Local, and Indian Tribal Governments, Attachment A (C.1.a) revised May 4, 1995, as
    further amended August 29, 1997.
9
    For the quarter ending June 2002, San Francisco County determined that 16 percent of all General Relief
    recipients did not receive Food Stamps and, therefore, subtracted 16 percent from all charges to E&T. Therefore,
    the original $20,000 charge was reduced to $16,800 ($20,000 - $3,200 = $16,800). This amount was charged to
    the E&T 50-percent fund for a total overcharge of $8,400 ($16,800 X .50 = $8,400).



USDA/OIG-A/27099-23-SF                                                                                    Page 3
We determined that the county has since improved its accounting system. A
supplemental code was added to the system that further identifies the program to be
charged. Beginning in July 2002, the county also initiated a policy to review all direct
charges to E&T. These improvements should prevent future unallowable claims.

Recommendation No. 1:

Recover $8,400 from CDSS for an unallowable contract cost claimed by San Francisco
County.

FNS Response:

FNS concurred with the finding and recommendation and will present the State of
California a bill to recover $8,400.

OIG Position:

We agree with FNS’ proposed corrective action. To achieve management decision, the
agency needs to provide us with documentation that the State has been billed for the
appropriate amount and support that the amount has been entered as a receivable on
FNS’ accounting records.

CONCLUSION AND REQUIRED AGENCY ACTION:

Your February 18, 2004, response to the draft report has been included as exhibit B of
this report. We agree with your proposed corrective action but are unable to reach
management decision for Recommendation No. 1 for the reasons cited above.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of those recommendations for which management decision has not
been reached. Please note that the regulation requires a management decision to be
reached on all recommendations within a maximum of 6 months from report issuance
and final action to be taken within 1 year of the management decision. Follow your
internal agency procedures in forwarding final action correspondence to the Office of
the Chief Financial Officer.

We appreciate the assistance and cooperation of your staff during our audit.


/s/

SAM W. CURRIE
Regional Inspector General
  for Audit


USDA/OIG-A/27099-23-SF                                                          Page 4
EXHIBIT A - SUMMARY OF MONETARY RESULTS

RECOMMENDATION
    NUMBER               DESCRIPTION               AMOUNT            CATEGORY

      1          Unallowable Expenditure Charged            Questioned Costs – Recovery
                 to E&T                            $8,400   Recommended

TOTAL MONETARY
RESULTS                                            $8,400




USDA/OIG-A/27099-23-SF                                                            Page 5
EXHIBIT B - FNS' WRITTEN RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27099-23-SF                              Page 6
